                                                                     Department of Energy
                                                                   Office of Inspector General




    Letter Report on “Allegations of Retaliation at a Department Site”
                                   S10IS013
                             September 29, 2010




This is a summary of Inspection Letter Report S10IS013 dated September
22, 2010, pertaining to a “Review of Allegations Involving Potential
Retaliation” at a Department Site. The complete report is not available
for public disclosure. Public release is controlled pursuant to the
Freedom of Information Act.

The Office of Inspector General (OIG) received an allegation by an Office
of Environmental Management Site contractor employee who alleged that
he was retaliated against and removed from his position for raising
questions about outstanding safety and design issues.

We initiated a preliminary review of the facts and circumstances
surrounding the individual’s allegation of retaliation. During the course of
our review, we were told, and we later confirmed, that the individual filed
retaliation complaints relating to his removal with the Department of
Labor (DOL). Under the circumstances, the results of our preliminary
review have been referred to DOL, and we are deferring further action
concerning this matter.
